Q@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 19-677

DAVE YOST AND JOSEPH DETERS,
Petitioners,

v.
PLANNED PARENTHOOD SOUTHWEST
OHIO REGION, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 26th day of December, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF GEORGIA, ALABAMA, ALASKA, ARKANSAS,
IDAHO, INDIANA, KANSAS, KENTUCKY, LOUISIANA, MISSISSIPPI, MISSOURI, MONTANA, NEBRASKA,
OKLAHOMA, SOUTH CAROLINA, SOUTH DAKOTA, TENNESSEE, TEXAS, AND UTAH AS AMICI CURIAE

SUPPORTING PETITIONERS in the above entitled case. All
Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
CHRISTOPHER M. CARR
Attorney General of Georgia
ANDREW A. PINSON
Solicitor General
Counsel of Record
DREW F. WALDBESER
Assistant Solicitor General
OFFICE OF THE GEORGIA.
ATTORNEY GENERAL
40 Capitol Square, SW
Atlanta, Georgia 30334
(404) 651-9453
apinson@law.ga.gov

Subscribed and sworn to before me this 26th day of December, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

parties required to be served have been served by Priority

 

 

Notary Public Affiant

39132
SERVICE LIST

Benjamin M. Flowers

Ohio Solicitor General

Counsel of Record

Stephen P. Carney

Deputy Solicitor General
30 E. Broad St., 17th Floor
Columbus, Ohio 43215
614-466-8980
benjamin. flowers@ohioattorneygeneral.gov
Counsel for Petitioners Dave Yost, Ohio Attorney General, et al.

Jennifer L. Branch
Counsel of Record
Alphonse A. Gerhardstein
Gerhardstein & Branch Co., LPA
441 Vine St., Suite 3400
Cincinnati, Ohio 45202
513-621-9100
jbranch@gbfirm.com
Counsel for Respondents Planned Parenthood Southwest Ohio Region et al.
